U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Taylor Lohmeyer Law Firm PLLC v. United States of America,
S.Ct. No. 20-1596

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 13,
2021, and placed on the docket on May 17, 2021. The government’s response is due on June 16,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1596
TAYLOR LOHMEYER LAW FIRM PLLC
USA

STEVEN JON KNIGHT
CHAMBERLAIN, HRDLICKA,WHITE,
WILLIAMS & AUGHTRY, PC
1200 SMITH STREET
SUITE 1400
HOUSTON, TX 77002
713-658-1818
STEVEN.KNIGHT@CHAMBERLAINLAW.COM
STEVEN TOSCHER
L AW O F F I C E S HOCHMAN SALKIN
TOSCHER PEREZ P.C.
9 1 5 0 WI LSHIRE BOULEVARD
SUI TE 3 0 0
BEVERLY HILLS, CA 90212-3414
310-281-3221
TOSCHER@TAXLITIGATOR.COM

